    Audit of NSF’s
 Committees of Visitors




National Science Foundation
Office of Inspector General

     September 25, 2003
       OIG 03-2-013
MEMORANDUM

DATE:                        September 30, 2003

TO:                          Thomas N. Cooley
                             Chief Financial Officer

                             Nathaniel G. Pitts, Director
                             Office of Integrative Activities

FROM:                        Deborah H. Cureton
                             Associate Inspector General for Audit

SUBJECT:                     Audit of NSF’s Committees of Visitors
                             OIG Report Number

Attached please find the final report on our audit of NSF’s Committees of Visitors. We
received your response and have included it, in full, as an appendix to this report.

In accordance with OMB Circular A-50, please furnish our office with a time-phased
action plan to address the report recommendations within 60 calendar days of the date of
this report.

I would like to express my appreciation for the courtesies and assistance provided by
your staff during the audit. If you have any questions, please contact Karen Scott or Jill
Schamberger at (703) 292-7100.

Attachment

cc :   Dr. Rita R.Colwell
       Dr. Joseph Bordogna
       Dr. Christine C. Boesz
       Peter Freeman
       Margaret Leinen
       Judith Ramaley
       John Brighton
       Karen Scott
       Jill Schamberger
       Kathleen Graham
Jill Schamberger
Kathleen Graham
Executive Summary
       Background

       Each year NSF relies on Committees of Visitors (COVs) – composed of
       qualified external experts from academia, industry, and the public sector –
       to review NSF’s award decisions and other management issues related to
       its programs. COVs assess the efficiency and integrity of NSF’s
       programs, including merit review procedures and overall program
       direction. They also provide NSF with expert judgments about the extent
       to which NSF programs contribute to NSF attaining its strategic goals
       under the Government Performance and Results Act of 1993 (GPRA).

       Following guidance issued by NSF’s Office of Integrative Activities,
       NSF’s directorates convene COV meetings every three years for a given
       program portfolio. During these meetings, COVs consider proposal
       actions taken by an NSF program office over the past three fiscal years.
       Using a standard template, the COVs respond to questions about the
       program’s process of reviewing and awarding grants and the performance
       of the program’s portfolio of awards. Upon completing its work, the COV
       issues a written report that usually includes recommendations and other
       observations about the results of its review. NSF considers the
       recommendations, and issues a written response to the COV report, which
       should include actions it plans to take to address the COV’s
       recommendations.


       Purpose

       Because of the roles COVs play in providing feedback on program
       activities and providing data about NSF’s performance, we set out to
       determine whether NSF is evaluating and using the COV process to better
       manage and report on its program operations. In addition, we considered
       whether the processes for COV meetings and/or the use of COV reports
       can be improved; and if NSF is appropriately using the COV reports as
       input for its performance reporting.


       Findings and Recommendations

       Based upon our review of 11 of the 18 COVs NSF convened during Fiscal
       Year 2001, we found that COVs provide a valuable service to NSF in
       managing its programs that helps NSF accomplish its mission. COV
       members, as external experts in the program areas, provide NSF with an
       independent assessment of the quality of NSF’s management of the
       programs’ research direction and portfolio of awards, as well as programs’
success in contributing to the accomplishment of NSF’s mission. The
COV reports provide NSF with feedback on the direction and management
of its programs, as well as constructive suggestions and recommendations
for improvement.

We did, however, find that while NSF program officials view the COV
recommendations and suggestions as helpful in improving the programs,
NSF does not have any requirement that directorates document how they
actually implemented or otherwise addressed the COV recommendations.
Without such documentation, institutional history could be lost, and COV-
recommended improvements could be overlooked, possibly diminishing
the value of COV advice. We, therefore, recommend that NSF require its
directorates to document, in writing, how they implemented the COV
recommendations, or the reasons for not implementing the
recommendations. Furthermore, we recommend that NSF require that
COVs be provided, prior to the COV meeting, a written record of actions
taken regarding the previous COV recommendations.

Finally, we found that NSF does not clearly disclose and discuss the
limitations of data in the COV reports that it relies upon for its
performance reporting. In FY 2001, not all COVs provided responses to
questions regarding NSF’s strategic goals and indicators, yet NSF did not
adequately discuss this issue in its performance report. Subsequent
changes in FY 2002 to NSF’s process for collecting and reviewing data
raise new concerns about the objectivity of the data while concerns remain
as to whether NSF adequately discloses these limitations. As a result,
decision makers and other users of NSF’s performance reports may be
unaware of the data limitations and may not be able to adequately judge
the reliability of the data used to assess NSF’s performance. To address
these issues, we recommend that NSF fully discuss and disclose, in its
GPRA performance reports, all limitations in the data collection and
reporting process.
Table of Contents
        Introduction….……………………………………………………………1
             Background………………………………………………………….1
             Committee of Visitors Guidance……………………………………1

        Objective, Scope, and Methodology………………………………………4

        Results of Audit…………………………………………………………...6
             COVs Are Useful to NSF in Managing Its Programs………………7
              Need Exists to Document the Status of COV Recommendations….9
              Better Disclosure Needed in GPRA Performance Reporting……..11
              Matters for Consideration…………………………………………16

        Agency Response………………………………………………………...17

        Attachments
        A. Agency Response…………………...……..…………………………18
        B. Fiscal Year 2001 COV Report Sample……………..………………..25
Introduction
        Background

        Each year NSF relies on qualified groups of experts from academia,
        industry, and the public sector to review NSF’s award decisions and other
        management issues related to its programs. These external groups, called
        Committees of Visitors (COVs), serve two purposes for NSF. First, since
        the 1970s, COVs have provided NSF with assessments of the efficiency
        and integrity of program-level1 operations, and technical and managerial
        proposal decisions. The areas assessed include merit review procedures
        and overall program direction. Second, since Fiscal Year (FY) 1999,
        COVs have also provided NSF with expert judgment about the extent to
        which the research and education efforts it funds have contributed to NSF
        attaining its strategic goals under the Government Performance and
        Results Act of 1993 (GPRA).

        NSF requires its directorates to convene COV meetings every three years
        for a given program portfolio. Each COV considers proposal actions
        taken by an NSF program over the past three fiscal years, and, using a
        standard template, responds to questions about the program’s process of
        reviewing and awarding grants and the performance of the program’s
        portfolio of awards. Upon completing its work, the COV issues a written
        report that usually includes recommendations and other observations about
        the results of its review. NSF considers the recommendations, and issues
        a written response to the COV report, which should include a discussion
        of actions it plans to take to address the COV’s recommendations.


        Committee of Visitors Guidance

        NSF’s Office of Integrated Activities (OIA) oversees the COV process
        and schedule agency-wide, on behalf of the NSF Director. In this
        capacity, OIA issues the agency’s overall administrative guidance that
        addresses such subjects as the composition of the COVs and the frequency
        of the COV reviews. OIA develops and updates the specific program
        management and performance questions each COV is required to answer,
        and reviews completed COV reports to ensure the COVs followed the
        template in their responses.


        1
         The term “program” refers to the administrative, or organizational, level at which NSF
        administers basic research awards. Multiple programs make up a division, and multiple
        divisions make up a directorate within NSF’s organizational structure. In Fiscal Year
        2001, NSF had over 220 programs within its 7 directorates and Office of Polar Programs.


                                          1
OIA’s administrative guidelines for COVs contain specific requirements,
such as those related to the composition of a COV, that all of NSF’s
directorates and offices must follow. However, much of the guidance is of
a general nature; the directorates are free to customize and implement that
guidance as they see fit to address the particular needs of their programs.
For example, the guidelines require:
    • Each NSF program to have a COV review on a 3-year cycle. Yet,
        the directorate has discretion to decide the number of programs a
        COV will review at one time. Accordingly, the actual number of
        programs reviewed can vary significantly among COVs.
    • Directorates to provide a variety of program-related documents for
        each COV to use in completing its assessment, including summary
        data about the portfolio of activities, information on program
        performance, and the previous COV’s report and the agency’s
        response to that report. Directorates have discretion to provide any
        additional information to the COVs that they believe is relevant.
    • Directorates to provide each COV with a sample of proposal files
        for the COV to review as part of its assessment. Directorates must
        draw the sample from proposals that were awarded, declined,
        returned as inappropriate, and withdrawn, as well as from
        proposals for which the award decision was borderline. However,
        the administrative guidelines do not specify a particular method of
        sampling the directorates must use, nor do they require the
        directorates to use a statistical sampling method. Thus, the
        sampling method of the files is left to the COV, and the methods
        vary within and among the directorates.

COVs are directed to address the questions contained in the COV template
issued by OIA, which is based on a set of general questions in the
administrative guidance that are modified and updated by OIA as needed.
In addition, directorates may also include any other general or program-
specific questions they want the COVs to address. For the year of our
review, FY 2001, the COV template was divided into two major sections.
Part A – Integrity and Efficiency of the Program’s Processes and
Management, contained four sections of questions addressing: (1) the
quality and effectiveness of the merit review procedures; (2) the adequacy
of the implementation of the Merit Review Criteria (intellectual merit and
broader impacts) by reviewers and program officers; (3) the
appropriateness of the qualifications and the diversity of the groups of
experts reviewing proposals; and (4) the quality and balance of the
portfolio of awards under review.

Part B - Results: Outputs and Outcomes of NSF Investments, directed the
COVs to reach a consensus regarding the degree to which past
investments in research and education have measured up to NSF’s annual
strategic outcome goals for GPRA. For each of NSF’s three strategic


                             2
outcome goals – People, Ideas, and Tools – the template stated that COV
members were to assess the program’s success in meeting specific
indicators for these goals and instructed the COVs to provide specific
examples that illustrated goal achievement. The guidance in Part B also
instructed the COVs to identify weaknesses in program areas, as well as to
provide clear justifications for their ratings. The template further stated
that justifying the ratings was critical because ratings without justifications
would not be used for agency reporting purposes. Finally, the instructions
in Part B asked the COVs to comment on program areas needing
improvement and on the program’s performance in meeting program-
specific goals and objectives not related to GPRA performance measures.

Upon reviewing the relevant information and concluding its work, a COV
issues a written report, as required by the administrative guidelines. The
guidelines also require the directorate to respond in writing to the COV’s
report. However, the guidelines state only that the response should set
forth actions the directorate plans to take on each recommendation made
by the COV; they do not require directorates to document the completion
of those actions, or the reasons for decisions not to implement the
recommendations.




                              3
Objectives, Scope, and Methodology
    The objectives of our audit were to determine whether:
       • NSF is evaluating and using the COV process to better manage and
           report on its program operations;
       • The processes for COV meetings and/or the use of COV reports
           can be improved; and
       • NSF is appropriately using the COV reports as input for its
           performance reporting.

    In FY 2001, the period under review, NSF convened 18 Committees of
    Visitors that reviewed 92 of NSF’s approximately 220 programs.2 These
    92 programs accounted for $1.1 billion of NSF’s total FY 2001 funding of
    $4.5 billion. From the 18 reports issued by these COVs, we judgmentally
    selected for review a sample of 11 COVs (see Attachment B for details).
    These 11 COVs reviewed a total of 58 programs spanning 4 directorates,
    and accounted for $570 million of NSF’s FY 2001 budget. From these 58
    programs, we judgmentally selected 28 for detailed review, ensuring that
    we included at least 1 program from each of our 11 selected COVs. For
    example, the Engineering Directorate had 3 COVs in FY 2001 that
    reviewed 15 programs; we reviewed all 3 COV reports, and interviewed
    program managers for 8 of the 15 programs, ensuring that the 8 programs
    were distributed among the 3 COV reports.

    To determine how NSF evaluates and uses COV reports to better manage
    its programs, we held discussions with agency officials who oversee the
    COV process about the history of COVs and the policies and procedures
    guiding the process. We reviewed agency documents and other reports on
    COV activities and processes. For our sample of 11 COVs, we
    interviewed the responsible program managers, division directors, and
    assistant directors, focusing on such topics as how program managers use
    the information contained in the COV reports, what steps managers took
    to implement specific COV recommendations, and how the COV process
    could be improved. We also conducted telephone interviews with four
    COV members – one from each of the four directorates in our sample – to
    obtain their perspective on the COV process itself and on how NSF uses
    COV reports to manage programs and operations.



    2
      To conduct the 18 COVs in FY 2001, NSF spent over $471,000 in compensation and
    transportation for the COV members. Additionally, NSF estimates that its staff invested
    more than 11,000 hours in preparing for and conducting the COVs. The size, duration,
    and scope of each COV varied: the number of external experts ranged from 5 to 25; the
    meetings lasted anywhere from 1 to 3 days; and the COVs reviewed single programs,
    groups of programs, or entire divisions.


                                      4
To determine how NSF uses COV reports as input for judging its
performance under GPRA, we reviewed information on NSF’s GPRA
reporting process. We reviewed the 11 COV reports to determine whether
they addressed all of the performance goals and indicators, and analyzed
the types of responses the COVs provided in their reports. We also
reviewed Advisory Committee (AC) and other internal and external
documents that address NSF’s GPRA reporting.

We conducted our work between June 2002 and August 2003 in
accordance with generally accepted government auditing standards.




                            5
Results of Audit
        Overall, we found that NSF uses the COV reports to better manage its
        scientific, engineering, and educational programs. Because the COV
        members are external experts in the program areas, they are able to
        provide NSF with an independent assessment of the quality of NSF’s
        management of the programs’ research direction and portfolio of awards,
        as well as the programs’ success in contributing to the accomplishment of
        NSF’s mission. Through the COV reports, NSF not only receives
        feedback on the direction and management of its programs, it also receives
        constructive suggestions and recommendations for improvement. Thus,
        COVs provide valuable feedback to NSF for its use in improving the
        management of its programs to better accomplish its mission.

        However, we also found that NSF can take further advantage of the results
        of the COVs’ efforts. While NSF program officials view the COV
        recommendations and suggestions as helpful in improving the programs,
        NSF does not have any requirement that directorates document for future
        COVs, how they addressed or implemented the COV recommendations.
        Without such documentation, institutional history could be lost, and COV-
        recommended improvements could be overlooked, thus diminishing the
        value of COV advice.

        In addition, while NSF uses COV reports as an important source for
        determining its performance in meeting its strategic goals under the
        Government Performance and Results Act of 1993 (GPRA), NSF should
        more clearly disclose the limitations of the data in its performance
        reporting. In FY 2001, not all COVs provided responses to questions
        regarding NSF’s strategic goals and indicators, yet NSF did not adequately
        discuss the limitations of the data or the impact on the completeness of its
        performance assessment in its performance report. Further, more recent
        changes in FY 2002 to NSF’s process for collecting and reporting data
        raise new concerns about the completeness, and therefore, the objectivity
        of the data, while concerns remain as to whether NSF adequately discloses
        these data limitations. As a result, decision makers and other users of
        NSF’s performance reports may be unaware of the data limitations and
        may not be able to adequately judge the reliability of the data used to
        assess NSF’s performance.




                                     6
COVs Are Useful to NSF in Managing Its Programs
        NSF’s COV process provides an administrative mechanism for the agency
        to obtain external assessments by technical experts about the quality of
        NSF’s management of its portfolio of research, engineering, and education
        programs, and how well the programs contribute to the accomplishment of
        NSF’s mission. We found that NSF program managers find value in the
        COV process at many levels, from the insights gained by the program
        managers in preparing for their COV meetings, to the recommendations
        made by the COVs that help NSF improve and better manage its
        programs. Further, we found that NSF program managers value the
        advice provided by the COVs and often implement the recommendations.
        Finally, NSF’s use of external experts in the COV process enhances NSF’s
        standing in the scientific community by allowing the community to review
        and assess NSF’s grant decision-making processes.

        Program managers informed us that preparing for a COV provides them
        with an opportunity to step back from the details of their day-to-day
        responsibilities and consider their program as a whole, an activity they
        may not normally have the time to undertake. Although they said
        preparing for a COV is a time-consuming and arduous task, program
        managers stated that, by taking the time to consider the program as a
        whole, they could identify broader program issues. For example, using
        information gained from preparing for a COV meeting, one program
        manager identified gaps in program coverage, while another refined the
        cohesiveness of the program’s award portfolio. Still another program
        manager stated the information developed and compiled for the COVs
        established an excellent source of reference material about the programs.

        The COV reports and recommendations typically cover a range of topics
        related to managing NSF’s programs and, according to NSF officials, are
        useful for improving the proposal review process, program management,
        and the COV process itself. Program managers and division directors
        noted that the reports provide feedback on aspects of the proposal review
        process, such as the time that elapsed between NSF’s receipt of a proposal
        and when a funding decision is made, that helps NSF improve the process.

        COV reports and recommendations also address program management
        issues, providing valuable feedback on various aspects of developing and
        managing a research portfolio. For example, COVs assess how well
        program managers balance awards between new and experienced
        investigators, and between lower risk and cutting edge, higher risk
        research projects. Feedback on these subjects helps program managers
        ensure that NSF funds both new researchers and new science.


                                     7
COV reports also reinforce areas where NSF programs are particularly
successful, as well as highlight areas needing improvement, providing
program managers with external feedback that validates their actions or
provides insights to help them better manage their programs. For
example, several managers at the directorate level noted that COVs
provide valuable feedback on how well programs support both NSF’s and
the research community’s goals, and provide ideas on ways to better focus
NSF’s research priority areas. They also stated that they found COV
advice useful in examining how their programs interrelate with other
programs in their directorates and NSF as a whole, as well as with
programs of other Federal agencies.

We also found that program managers take actions to address or
implement the recommendations contained in COV reports. We reviewed
40 recommendations – approximately 20 percent – of the more than 170
recommendations3 contained in our sample of COV reports to determine
how program managers responded to the recommendations. For 24
recommendations, program managers advised us that they had taken
action at the pertinent program, division, or directorate level. For the
remaining 16 recommendations, the program managers had considered the
recommendations, but had determined that the recommended actions were
either not feasible or the program office was already taking similar
actions.

For example, one COV recommended that the program managers, in their
review analyses of proposals, provide better documentation of the
principal investigators’ past accomplishments. Based upon this
recommendation, the program’s section head developed a template to
capture this information that all program officers in that division now use.
Another COV recommended that the division fund more high-risk
projects. Program managers stated this recommendation was difficult to
implement because their funding is limited, and funding more high risk
proposals would be at the expense of funding higher scored proposals.

Finally, the COV mechanism itself benefits NSF’s relationship with the
scientific community. By providing the scientific community the
opportunity to review and comment on NSF’s internal decision making
processes, NSF provides transparency and insight to representatives of the
community that NSF supports.


3
  About 50 percent of the recommendations related directly to the proposal review
process, including recommendations for increasing minority participation in the review
process, and about 25 percent of the recommendations addressed program management
issues. Most of the remaining recommendations addressed the COV process itself, such
as improving the clarity of the questions in the COV template.


                                  8
Need Exists to Document the Status of COV
Recommendations
        While the COV process provides recommendations that, in general, NSF
        program officials found useful and implemented, we found that NSF does
        not require its managers to document or otherwise account for actions
        taken to implement or otherwise address the recommendations. Thus,
        unless managers maintain their own records, no written documentation of
        the actions taken on recommendations exists. Furthermore, without a
        written record, institutional history may be lost, potentially undercutting
        the overall usefulness of the COV mechanism.

        NSF requires each COV to issue a written report and requires the agency
        to respond to that report in writing, and all but one of the COVs we
        reviewed received written responses to the COV reports from NSF.4
        However, very few of the program managers we interviewed kept written
        records of the actual steps they took to implement the recommendations,
        although many stated that some means of tracking recommendations and
        documenting actions taken on them would be useful to them and the
        agency.

        The program managers we interviewed offered a variety of reasons why
        NSF does not document the actual implementation of COV
        recommendations. Some suggested that COV recommendations are not
        binding and, therefore, do not need to be enforced. Some expressed
        concern that a formal tracking system would add another layer of
        bureaucracy to already overworked program management. Still others
        commented that the program and division directors already address the
        recommendations by implementing them in their day-to-day activities.

        However, documenting management decisions on actions taken on COV
        recommendations would provide an institutional history for NSF’s
        transient management. Each year, about 10 percent of NSF’s total staff is
        working for NSF under temporary rotational programs.5 For program,
        division, and directorate managers, this percentage tends to be even
        higher. These professionals come from academia, industry, and other
        organizations, and typically serve a 1- to 2-year tour of duty. These
        programs strengthen NSF’s ties with the research community and provide
        talent and resources to meet NSF’s mission by bringing into NSF


        4
         The one COV report for which there was no response was for programs that were being
        phased out.
        5
          NSF’s two most frequently used programs are the Visiting Scientist, Engineer, and
        Educator (VSEE) Program and the Intergovernmental Personnel Act (IPA) Program.


                                         9
scientists and engineers with the most recent knowledge of cutting edge
research.

The turnover from these visiting professionals, as well as turnover of the
permanent staff due to normal rotations and attrition, creates a condition
where there is no guarantee that a program manager or division director
will be in the same position three years later for the next COV. For
example, 6 of the 25 program managers we interviewed (about 20 percent)
were not in their current position during the FY 2001 COVs. Of the 11
division directors we interviewed, 5, or almost 50 percent, were not in
their current position during the FY 2001 COVs. As a result, institutional
history can be lost if NSF does not document actions taken on COV
recommendations.

We believe that a written record of the actions taken to implement COV
recommendations, or the reasons for not implementing them, would be
useful to a variety of audiences.

   •   Incoming COV members. Providing such a document to members
       of the subsequent COV, prior to its meeting, would educate the
       COV members on previous issues and actions taken by NSF, and
       provide them with a better understanding of the process. This, in
       turn, could help them be more focused while completing their
       work. Furthermore, since we found that NSF often provides these
       types of updates verbally during the COV meeting, providing this
       information in advance of the meeting would help conserve
       valuable time during the meeting.

   •   Previous COV members. For those who participated in the prior
       COV, a written documentation of actions taken provides
       affirmation that the work they put into the COV process was
       seriously considered and actually used by program management.
       Further, documenting management’s reasons for not implementing
       a recommendation helps the COV to understand the issue more
       thoroughly.

   •   NSF program and division managers. Such an update would
       provide a written history and remind staff of the actions taken, or
       reasons why actions were not taken. In addition, because of staff
       turnover and a reliance on visiting professionals, this type of
       mechanism would ensure that the actions taken are recorded and
       that these responses to the recommendations are not lost during
       staff transitions.

   •   NSF. Recording actions taken on COV recommendations would
       be a good business practice to complete the cycle of the COVs and


                            10
               enhance the agency’s ability to further use the COV mechanism to
               better manage programs.


        Recommendation

        In light of the benefits that would be derived from documenting actions
        taken on COV recommendations, and in consideration of managers’
        workloads, we recommend that the Director, Office of Integrative
        Activities:

        1. Update the Administrative Guide for COVs to require that directorates
           and offices:
              a. Document the implementation of COV recommendations, with
                   a written record of specific actions taken on the
                   recommendations, or reasons why the recommendations were
                   not implemented; and
              b. Provide COVs, prior to their meeting, with a written record of
                   actions taken to implement or otherwise address the
                   recommendations made by the previous COV.




Better Disclosure Needed in GPRA Performance
Reporting
        COVs also play an important role in NSF’s reporting to Congress on its
        strategic performance under the Government Performance and Results Act
        of 1993 (GPRA). NSF relies on the COV reports to provide one segment
        of data essential to this reporting. However, limitations in the COV
        process affect the completeness of the performance data used in GPRA
        reports. Thus, NSF’s GPRA reports do not provide a complete portrayal
        of its programs’ performance, and NSF has not adequately disclosed these
        limitations to users of its reports. Further, recent changes in NSF’s
        process for collecting and reviewing data to assess the agency’s
        performance raise new concerns about the objectivity of the data and
        reinforce existing issues as to whether NSF adequately reports these
        limitations to users of its performance information. When the National
        Science Board, NSF managers, and other users of NSF's performance
        reports are unaware of limitations in the data used for reporting
        performance, they may not be able to adequately judge the reliability of
        the data for decision-making purposes.

        The intent of GPRA is to improve the efficiency, effectiveness and
        accountability of federal programs by requiring agencies to set


                                    11
performance goals for their programs and activities and to report annually
on their progress towards achieving those goals. GPRA requires agencies
to provide objective information on their achievements in the annual
performance report. In addition, the performance data reported by
agencies must be accurate, reliable, and complete in order to be useful to
Congress, program managers, and other users of the information, as well
as to provide a level of transparency in government operations.

Any limitations in data collection or reporting processes could affect the
completeness, consistency, and reliability of the data and thus, impact the
accuracy of conclusions users may reach about a particular agency’s
performance. Therefore, to ensure that an agency’s performance report
fully and accurately describes the results of its performance, GPRA
requires an agency to discuss any limitations in that process that may
affect the completeness and reliability of the performance data so that
inaccuracies do not cause readers to misinterpret the performance data
when making decisions based on that information.


Data Limitations Not Adequately Disclosed in NSF’s FY 2001 GPRA
Performance Report

In compiling its FY 2001 performance report, NSF relied on a variety of
data sources, including COVs’ responses to questions regarding NSF’s
strategic goals and indicators.6 We identified several instances, however,
where the COVs did not provide complete responses to these questions,
which affected the reliability and accuracy of the performance data. The
reasons for the incomplete reporting vary with each COV, making them
difficult for NSF to mitigate or address directly. 7 However, NSF’s
disclosure of the fact that not all COVs answered all questions was not
adequate to fully inform users of NSF’s performance report that there
were limitations to the data that could affect the users’ understanding of
the reports.

NSF requires COVs to separately address and rate each strategic goal, and
each of the goal’s related indicators, yet not all of the FY 2001 COV
reports rated each goal or the indicators, as directed by the COV
guidance.8 For example, for NSF’s “People” strategic goal, 1 of the 11

6
  COVs review approximately one third of NSF’s programs each year. Therefore, NSF
also relies on AC reports, annual directorate and office reports, and other evaluations and
special studies for its GPRA performance reporting.
7
  Some of the reasons for incomplete reporting for the COVs could include varying
interpretations of the guidance by COV members; the time constraints of the COV
meeting; and the limited level of enforcement by staff overseeing the COV in order to
maintain the COV’s independence.
8
  In our analysis, we considered a COV response of “not applicable” to be a properly
completed response.


                                   12
COV reports we reviewed did not rate the goal at all. Similarly, 1 of the
11 COV reports did not rate the “Tools” strategic goal; however, all 11
COVs rated the “Ideas” goal. For each of the indicators related to the
“People” strategic goal, at least one of the COVs either did not rate the
indicator as directed, or omitted the indicator’s rating altogether.
Likewise, for each of the “Ideas” indicators, at least three COVs either
omitted or did not rate them as directed, and for each of the “Tools’”
indicators, at least two COVs either omitted or did not rate the indicators
as directed.

PricewaterhouseCoopers (PwC), an NSF contractor, reported similar
findings in its study of NSF’s FY 2001 performance reporting process.
PwC found that, for 6 of the 11 performance goal indicators, about 30
percent of the COV and AC reports used to assess NSF’s performance did
not provide an explicit rating for each indicator. PwC concluded that, due
to these data limitations, there was insufficient information on which to
base an “unequivocal determination of success in achieving certain
indicators.”9 Furthermore, PwC recommended that NSF “balance their
final performance report language reflecting the neutrality of these reports
and the inability to support the AC and COV report text with clearly
identifiable examples and awards.”10

However, while NSF acknowledges that limitations “may exist” in the
“Validation and Verification” section of its performance report, nowhere
in the report does NSF discuss the exact nature of the data limitations for
each of the goals or indicators. By not clearly identifying these specific
data limitations in the sections of the report providing performance results,
NSF potentially misleads users about the actual performance of its
programs.


Concerns Remain with Changes to the Data Collection Process for
Performance Reporting

Since completing its FY 2001 performance report, NSF has amended how
it collects and reviews data for its GPRA performance reporting.
However, these changes raise new concerns about the objectivity of the
data collection process used to assess NSF’s performance, and reinforce
existing concerns about the adequacy of NSF’s disclosure of data
limitations affecting its performance reports.

Beginning with the FY 2002 performance reporting cycle, NSF
established an external Advisory Committee for GPRA Performance

9
  Pricewaterhouse Coopers, “FY 2001 GPRA Performance Measurement Validation and
Verification Final Report,” January 2002, p.3.
10
   Ibid.


                              13
Assessment (AC GPA) that reviews and assesses NSF’s performance in
achieving its strategic goals and related performance indicators. In relying
on a single external committee of experts to conduct an annual assessment
of NSF’s performance, NSF expected to improve the effectiveness and
efficiency of using external reviewers to report on NSF’s performance.

NSF provided the AC GPA with COV reports and other information,
including access to NSF’s program files. NSF also added a new step in its
assessment process by providing the committee with research,
engineering, and education highlights, referred to as “nuggets,” from
NSF’s programs. Using the various sources of performance information,
the AC GPA determined that NSF’s agency-wide portfolio demonstrated
achievement for all of its strategic outcome goals and the associated
performance indicators. The AC GPA noted in its FY 2002 report that, to
make its assessment of NSF’s portfolio, it relied heavily on the COV
reports and the selected nuggets and examples collected for them by NSF.

However, the collection of nuggets NSF provided to the AC GPA to
measure its performance did not present a balanced and complete picture
of the performance of NSF’s entire portfolio of scientific, engineering, and
education research activities. To collect the nuggets, NSF instructed its
directorates to judgmentally select examples of agency outcomes and
investments that were noteworthy or significant. Because NSF’s sample
of nuggets was selected judgmentally, rather than through statistical
methods, the nuggets represent only the performance of the specific
activities from which they were selected; they do not reflect the
performance or the richness of NSF’s entire research portfolio.

The AC GPA itself expressed concern about NSF’s use of a judgmental
sample as a basis on which to represent the performance of its award
portfolio, and recommended that NSF carefully examine its sampling
approach. In response, NSF considered the AC GPA’s suggestion, but
continues to assert that its judgmental sampling process is appropriate,
noting that, “statistical sampling is not designed to select outstanding
examples.”11 However, while NSF may only want to select outstanding
examples for the AC GPA’s consideration, GPRA reporting is intended to
be a complete, balanced, and objective assessment of an agency’s
performance.

A recent external evaluation of federal agency performance reports
also raised concerns about the objectivity of NSF’s collection
methodology. The Mercatus Center at George Mason University
rated NSF as “fair” when it evaluated whether NSF’s performance
measures were valid indicators of the agency’s impact on its

11
 “‘Nugget Selection’: Identifying Notable NSF Retrospective and Prospective
Outcomes,” January 28, 2003, p. 2.


                                14
outcome goals. Specifically, the Center reported that, “NSF
presents some fascinating illustrations of achievements by people
who have received NSF support, but these are selected anecdotes
that do not illustrate the typical experience for an NSF grantee.”12

We believe the use of a statistical sampling methodology, such as a
stratified random sample, would be a preferred approach to selecting
nuggets for use in assessing NSF’s performance. If NSF continues to use
judgmental sampling, it must at least clearly disclose and discuss its data
collection methodology, in order to comply with GPRA’s reporting
requirements. Such a discussion must disclose the limitations in the
selection process, as well as the nature of those nuggets not selected for
assessment. However, in its FY 2002 Performance Report NSF does not
discuss the judgmental nature of the performance data used, nor does it
explicitly identify or address the limitations.

Without either a change in its data gathering process or adequate
disclosure of the process’ limitations, the credibility of NSF’s performance
reporting is compromised. As noted earlier, even though they were
provided access to additional information, the AC GPA relied heavily on
the COV reports and the nuggets compiled by NSF to make its assessment
of NSF’s performance. To make its final performance determination,
NSF relied on the AC GPA report, as well as the COV reports. Thus, the
nuggets played an important role in defining the performance level that
NSF reported in its GPRA report. Yet, data limitations, such as
judgmental selection of nuggets or the incomplete responses to
performance questions in the COV reports, affect the accuracy and
reliability of the performance data. Without either a more balanced
approach to performance reporting or clearer disclosure of the limitations
of its performance data collection process, NSF risks misleading users
about its reported performance.

Recommendation

To ensure that decision makers and other users can rely on NSF’s
performance data, NSF needs to ensure that users understand the full
extent of any limitations that may affect NSF’s reporting on its
performance in achieving its mission and goals. Therefore, we
recommend that the Chief Financial Officer:

     •   Fully discuss and disclose, in the GPRA performance reports, all
         limitations in the data collection and reporting process.
         Specifically, should NSF continue to follow its existing process, it

12
  McTigue, Maurice P., Nutter, Sarah E., and Zambone, Jennifer, “4th Annual
Performance Report Scorecard: Which Federal Agencies Inform the Public?”, April 30,
2003, Mercatus Center, George Mason University, page 12.


                                15
               must clearly explain in its formal GPRA performance reports, and
               in all summaries of those reports, that its judgmental sampling
               process is designed to collect only outstanding or notable examples
               of performance, and discuss the impact of not including a more
               representative sample.




Matters for Consideration: NSF can further improve
the COV process through a variety of actions
        While we have concerns about how NSF reports on the performance
        information contained in the COV reports, COVs are, in fact, useful in a
        variety of ways and play an important role in NSF’s external review
        process. COVs help NSF better manage its programs; allow the scientific
        and business community to “audit” NSF review and award processes;
        provide input for policy and priority setting; and can provide leverage for
        change. In discussing the COV process with program managers and
        agency management during the course of this audit, we identified several
        “best practices” and opportunities to further improve the COV process.
        We present these suggestions for NSF’s consideration.

           •   Develop password-protected, centrally supported, websites of
               advance information for COV members. Currently, nearly all
               programs provide large binders of statistical data for use by the
               COV before and/or during the COV meeting. One Division
               Director we interviewed provided this information by email, some
               others have used CD-ROMs. Secure websites would reduce
               paperwork and alleviate concerns about sensitive advance
               information being exposed in an open academic environment. One
               Division Director noted that he would like to develop such a
               website but lacks the resources to do so. A centralized website
               would conserve resources. Additionally, the guidance for the
               website could provide information on the minimum requirements
               and suggestions about the best types of information to provide to
               the COV members.

           •   Create and maintain a central repository, or library, to share with
               all program managers, listings of the types of information provided
               to COVs. For example, OIA could maintain, for each year, a copy
               of the tables of contents or other listings of materials provided to
               each COV. Each COV receives a wealth of useful, and sometimes
               not so useful, information. However, it is difficult to prescribe
               what should be included because of the unique nature of each
               program and the level of review (program, groups of programs, or


                                     16
              entire division). By examining something as basic as a table of
              contents, a program manager preparing for a COV could learn
              what has been done within his or her division and directorate as
              well as other directorates. This could also facilitate a review
              process to determine minimum requirements for the COVs to
              prepare for the review.

          •   Encourage advance preparation and coordination between the
              program manager and the COV chair. The program managers and
              COV members who stated that they derived benefits from the COV
              process emphasized the value of advance preparation by both the
              program manager and the COV chair. Advance preparation can
              ensure a productive meeting, minimize the learning curve for
              program officers and COV members during the meeting, and
              provide a learning experience for a program officer. One
              suggestion was to provide an advance list of jackets for the COV
              chair. The chair could then provide a suggested sample of COVs
              to review, thus ensuring that needed jackets would be available
              immediately to the COV members when they met.

          •   Develop a “Best Practices” guide. Many program managers have
              developed innovative methods for presenting data and managing
              the COV meetings. OIA could maintain a central best practices list
              for directorates to consider when preparing for COV meetings, and
              to contribute as they see fit.




Agency Response
       NSF responded to our draft report and concurred with our
       recommendations. We have attached the agency’s response as Attachment
       A.




                                   17
Attachment A: Agency Response
The National Science Foundation’s response to the Committee of Visitors Audit by the
Office of the Inspector General


The Office of the Inspector General (OIG) of the National Science Foundation performed
an audit of the NSF Committees of Visitors (COV) process. The information that was
audited was from reports prepared by COVs convened during Fiscal Year 2001. Of the
18 COV reports available for FY 2001 the OIG judgmentally selected 11 for detailed
review. The OIG conducted its work between June 2002 and August 2003.

In May of 2003 the Government Accounting Office (GAO) in a report to Congressional
Committees1, also evaluated the NSF and its COV process. The Government Accounting
Office was asked to study 5 agencies identified by the Office of Management and Budget
(OMB) because “in preparing the 2004 budget, OMB found that half the programs they
rated were unable to demonstrate results.” The National Science Foundation was chosen
(along with 4 other agencies) for this study because NSF demonstrated evaluation
capacity in its performance report. GAO found that:

         “In the agencies we reviewed, the key elements of evaluation capacity were: an
evaluation culture, data quality, analytic expertise, and collaborative partnerships.
Agencies demonstrated an evaluation culture through regularly evaluating how well
programs were working. Managers valued and used this information to test out new
initiatives or assess progress toward agency goals. Agencies emphasized access to data
that were credible, reliable, and consistent across jurisdictions to ensure that evaluation
findings were trustworthy. Agencies also needed access to analytic expertise to produce
rigorous and objective assessments at either the federal or another level of government.
Each agency needed research expertise, as well as expertise in the relevant program field,
such as labor economics, or engineering. Finally, agencies formed collaborations with
program partners and others to leverage resources and expertise to obtain performance
information.”

The NSF COV process, a process of oversight by the research community that was
implemented by the National Science Board, has been in place for the last 25 years. But
during that time, NSF has assessed, improved, and modified the COV process. Each
COV is normally composed of 5-20 external experts representing academia, industry, the
public sector and government. NSF has Committees of Visitors review and evaluate
about one third of its program portfolio each year. This COV process is viewed as a best
practice by OMB for evaluation procedures pertaining to the government basic research
enterprise.


1
 GAO Report to Congressional Committees, Program Evaluation: An Evaluation Culture and
Collaborative Partnerships Help Build Agency Capacity, May 2003.


                                               18
The last major modification to the COV process occurred as a result of the Government
Performance Results Act (GPRA). The COVs originally studied and assessed only the
process by which the NSF selects the projects it supports. Thus, COVs origionally
focused on evaluating the merit review processes and the management of those processes
by program staff. In response to GPRA, NSF expanded the scope of the COV activities
to include: 1) evaluation of the process of project selection; and 2) evaluation of the
research and education results of funded projects. This newer COV process was first
completely implemented for the FY 1999 GPRA Annual Performance Report. NSF staff
and the National Science Board, through the Audit and Oversight Committee, worked
together to develop the strategy and the appropriate systems to fully comply with
accountability issues in the federal government.

In preparation for improving the accountability of the NSF through GPRA reporting,
NSF established a GPRA Infrastructure and Implementation Council (GIIC). This
council is currently composed of the Chief Financial Officer, the Chief Information
Officer, the Chief Human Capital Officer, an Assistant Director (currently from the Math
and Physical Sciences Directorate), and the Director of the Office of Integrative
Activities. This council meets weekly and reports regularly to the Senior Management
Integration Group, chaired by the Chief Operating Officer of NSF. All major
accountability issues, including COV modifications, are vetted through NSF Senior
Management. This process has been in place since 1997.

While NSF believes that the COV process is one of the effective practices regarding
accountability of the federal basic research enterprise, NSF also views itself as a learning
organization, able to take advice, use lessons learned and make appropriate changes for
improved performance. NSF is an agency that seeks advice constantly for its merit
review processes as well as its other business processes. With the advent of GPRA, the
Chief Financial Officer’s Act, and the numerous evaluations that are associated with
these and other accountability and management reforms, NSF has continuously modified
and strengthened its evaluation and assessment processes and associated data collection
systems. Therefore, NSF takes the two recommendations of the OIG audit seriously.

Recommendation 1: Document the status of COV recommendations.

The NSF has no issue with this recommendation. The NSF views this recommendation
as reasonable and one that will continuously improve the management of our programs.
NSF will work to implement this recommendation during the FY 2004 timeframe.

Recommendation 2: Fully discuss and disclose all limitations in the data collection and
performance reporting process.

NSF concurs with the recommendation to clearly explain the use of judgmental sampling,
and its impact, in the FY 2003 Performance and Accountability Report.

GPRA implementation has been a particular challenge for agencies like NSF whose
mission involves research activities. This is primarily due to: (1) the difficulty of linking



                                             19
research outcomes to annual investments and the agency’s annual budget; it is not
unusual for research outcomes to appear years or decades after the initial investment, and
(2) the fact that assessing the results of research is inherently retrospective and requires
the qualitative judgment of experts.

NSF developed an alternative format that has been approved by OMB, using external
expert review panels to assess research results and reporting research outcome goals on a
qualitative rather than a quantitative basis. The Government Performance and Results Act
requires goals to be expressed “in an objective, quantifiable, and measurable form unless
authorized to be in an alternative form.”2 The use of external expert panels to review
research results and outcomes is a common, long-standing practice used by the academic
research community. However, their use in GPRA assessments is new and there are no
models to follow.

In FY 2002, NSF established an Advisory Committee for GPRA Performance
Assessment (“the Committee”) to provide external advice and recommendations on
agency-wide performance, focusing on the long-term qualitative GPRA Strategic
Outcome Goals (four out of 20 annual performance goals). It is important to understand
that the four annual performance goals for strategic outcomes are determined to be
successful or unsuccessful based upon significant achievement of indicators3 for the sum
of the NSF portfolio (e.g. “Contributions to development of a diverse workforce…” and
“Development or implementation of other notable approaches or new paradigms…”).
Determining the best means for providing relevant information to the Committee, without
overwhelming them with data, is an evolving process.

While impractical for an external committee to review the contributions to the associated
performance goals by each of the over 20,000 active awards, NSF Program Officers
provided the Committee with about 800 summaries of notable results relevant to the
performance indicators. The Committee also had access to recent Committee of Visitor
(COV) reports of program assessments conducted by external programmatic expert
panels that are routinely used by NSF program management.

Collections obtained from expert sampling of outstanding accomplishments and
examples (“nuggets”) from awards, together with COV reports, formed the primary basis
for determining, through the recommendations of the external Advisory Committee for
GPRA Performance Assessment, whether or not NSF demonstrated significant
accomplishments in its FY 2002 GPRA Strategic Outcome Goals for People, Ideas and
Tools. The approach to nugget collection is a type of non-probabilistic sampling,
commonly referred to as “judgmental” or “purposeful” sampling, that is best designed to
identify notable examples and outcomes resulting from NSF’s investments.
It is the aggregate of collections of notable examples and outcomes that can, by
themselves, demonstrate significant agency-wide achievement in the Strategic Outcome
Goals. It is possible that the Committee could incorrectly conclude that NSF failed to
show significant achievement, due to the limited set, when it actually achieved the goals.

2
    Government Performance and Results Act of 1993, Section 4(b)
3
    See Annual Performance Plans available at http://www.nsf.gov/od/gpra/


                                                    20
That is, the Committee could conclude that NSF did not show sufficient achievements
based upon only hundreds of results while, if time permitted, reviewing hundreds or
thousands more would add enough to show sufficient total results.

The inverse, however, could not occur. If a subset were sufficient to show significant
achievement, then adding more results would not change that outcome. Therefore, the
limitation imposed by using a “judgmental” sample is that there is a possibility, though
likely small given hundreds of examples, that significant achievement would not be
sufficiently demonstrated while a larger sample would show otherwise.

The Advisory Committee, which includes noted experts in statistics and performance
assessment, understands the value and purpose of judgmental sampling used by NSF
subject-matter experts for the agency-wide evaluation of the GPRA Strategic Outcome
Goals. While suggesting in their FY 2003 report that NSF better insure even distribution
across Directorates, they write that “[t]he Committee believes that a purposeful sampling
technique, i.e., one that relies on the judgment of internal experts (NSF program staff)
combined with review by an external group of experts, is appropriate, reasonable and
useful for GPRA reporting purposes. Such a technique will provide adequate data on
which to base conclusions about performance relative to NSF’s outcome goals.”4

Missing from the OIG audit report (because of the specific substance actually audited) is
a discussion of the information provided to the Advisory Committee at their June 2003
meeting. The Advisory Committee received access to a website nearly two months ahead
of their meeting containing links to extensive qualitative and quantitative information
about NSF’s portfolio, including three large electronic datasets. The first set consisted of
complete COV reports for the prior two fiscal years and the approved reports for the
current fiscal year. Each year, approximately one-third of NSF’s programs are reviewed
and evaluated by these external committees. A three-year set will cover nearly all
programs. The COV conclusions in their reports are based on a statistical sampling of
actions (awards, declines, and withdrawals) within the programs under review. The
Advisory Committee also had electronic access to over 50,000 project reports submitted
by grantees and approved by NSF. The Committee members, through search capabilities
on the website, could then determine how they wanted to sample the complete set of
reports to make their conclusions rather than having NSF pre-determine any particular set
for their use. The Committee again received about 800 nuggets. These three sets of data
(COV reports, project reports, and nuggets), together with supplementary qualitative and
quantitative information, permitted the Committee to draw its own conclusions on NSF’s
achievement of the strategic outcome goals.

NSF received approval to use the alternative (qualitative) format for GPRA reporting, but
retained 16 additional quantitative annual performance goals in FY 2002 and FY 2003
ranging from customer service metrics, to use of merit review criteria, to cost and
schedule variances in facilities construction and upgrade, to increases in award size and
duration. The quantitative results are primarily derived from NSF’s extensive electronic
systems and come from “complete, balanced, and objective data”, as expressed in the
4
    FY2003 “Report of the Advisory Committee for GPRA Performance Assessment,” September 12, 2003.


                                                 21
audit report as a GPRA requirement. The qualitative results obtained from goals using
the alternative format are necessarily subjective in nature and derived from data
“appropriate, reasonable, and usable for GPRA reporting purposes”5, as determined by
the Committee.

Taken in total, the results from the 20 annual performance goals in each of FY 2002 and
FY 2003 provide a comprehensive evaluation of NSF’s activities, from both
programmatic and operational perspectives. The limitation associated with the use of the
sampled nuggets is that it is possible for the Committee to determine that the sampled
portfolio is insufficient to show significant achievement while an evaluation of the entire
portfolio would actually show significant achievement. The use of a judgmental sample
significantly minimizes this risk and constrains this limitation over the use of a statistical
sample (especially a random or stratified random sample). NSF will fully disclose in its
reporting the limitation that it could significantly achieve one or more of the qualitative
annual performance goals but incorrectly determine otherwise due to the use of a sample.
To suggest that “the credibility of NSF’s performance reporting is compromised” due to
this limitation appears to exceed usual, reasonable or proper bounds.

As stated above, since FY 2001, many modifications and improvements to the COV
process and the GPRA data gathering processes have occurred. As a result of various
evaluations and recommendations by outside entities, NSF hired outside contractors to
perform verification and validation work on various parts of its GPRA processes. Two
verification and validation activities of note are below:

          1) In FY 2002 NSF contracted with IBM Business Consulting Services, a
             professional service organization that provides assurance on financial
             performance and operations of business, to independently assess NSF’s
             performance results by examining COV scores and justifications. Their report
             (a summary of which was included in the FY 2002 NSF Performance Report6)
             states:

          “We commend NSF for undertaking this third-year effort to confirm the reliability
          of its data ant the processes to collect, process, maintain, and report this data.
          From our (FY) 2002 review, we conclude that NSF has made a concerted effort to
          ensure that it reports its performance results accurately and has effective systems,
          policies, and procedures to ensure data quality. Overall, NSF relies on sound
          business practices, system and application controls, and manual checks of system
          queries to report performance. Further, our efforts to re-calculate the
          Foundation’s results based on these systems, processes and data were successful.”




5
    FY2003 “Report of the Advisory Committee for GPRA Performance Assessment,” September 12, 2003.
6
    NSF FY 2002 GPRA and Accountability Report.


                                                  22
        2) In FY 2003, NSF contracted with IBM Business Consulting Services to do an
           independent verification and validation of the AC/GPA process. Here are
           their draft findings regarding nugget sampling7.

"Nugget Sampling
As in FY 2002, (AC/GPA) members raised the issue of whether the "nuggets" provided
by the Directorates were sufficiently representative of the entire NSF portfolio. The
Directorates selected the programs, on which to write nuggets, based on judgmental
sampling as opposed to random sampling. The committee discussed the relative value of
each.
To assess the relative significance of the nuggets and their distribution across the NSF
portfolio of grants, we applied GAO auditing standards related to materiality, relevance
and significance. We worked with NSF staff to obtain the total award dollar amounts
represented by both the retrospective and prospective nuggets available to the Committee.
We also examined the distribution of nuggets by directorate, as reported in the AC/GPA
website. The results of our assessment are as follows:
          Materiality. From our review, we conclude that the nuggets materially represent
    a sufficient share of overall NSF resources, committed to funding research, for the
    AC/GPA to rely upon to make its assessments. We calculated that the nuggets
    represent awards totaling over $3.4 billion in funding, including multi-year
    commitments from continuing grants. Comparing this figure to NSF's estimated grant
    awards and future-year commitments toward research in FY 2003, we conservatively
    estimate that the nugget dollar amounts are equivalent to at least one-third of the
    awards and commitments made to support People, Ideas and Tools in FY 2003.
          Relevance. We also reviewed the relative distribution of the 875 total nuggets by
    directorate, as reported in the AC/GPA website, and compared it to the estimated FY
    2003 funding for each directorate. From this review, we conclude that the
    judgmentally selected nuggets roughly represent an equivalent level of NSF resources
    devoted to each directorate. This provides some assurance that relevant elements of
    NSF's program awards portfolio are being reflected in the nuggets provided to the
    AC/GPA.
           Significance. On the issue of judgmental verses random sampling of nuggets,
    we believe that the use of judgmental sampling is appropriate for the purposes of the
    AC/GPA. Judgmental sampling assures that those programs that NSF professional
    staff judge as scientifically significant are included in the nuggets for use by the
    Committee. Because of the importance of applying professional judgment in the
    selection process, the traditional audit approach of random sampling would not meet
    the standard of "significance" in this instance. It is also important to reiterate that the
    charge of the AC/GPA is to provide a subjective, qualitative opinion on NSF's


7
 National Science Foundation: GPRA Performance Measurement Validation and Verification, IBM,
September 2003.


                                               23
  outcomes based on a wide range of performance information that extends beyond the
  nuggets, thus reinforcing the appropriateness of the judgmental sampling approach.
We also note that prior to the AC/GPA meeting and in response to a FY 2002 AC/GPA
recommendation, NSF discussed the issue of nugget sampling with senior management
and staff with expertise in statistics. Ultimately, NSF determined that judgmental
sampling was appropriate given the nature of the AC/GPA's qualitative review. During
the AC/GPA meeting, a number of committee members expressed satisfaction with the
nugget sampling technique, especially given the availability of other types of
performance information. Some committee members noted that their subcommittees went
far beyond the nuggets in making their judgments. We concur with this assessment."
This verification and validation information will be included in the FY 2003 Annual
GPRA Performance Report.




                                           24
Attachment B: Fiscal Year 2001 COV Report
Sample
       For our review we judgmentally selected a sample of 11 of NSF’s 18 COV
       reports issued in FY 2001. As shown in the following table, from these
       11 reports we generally selected for review about one-half of the programs
       covered by each report for an in-depth review.


        Directorate No. of     No. of divisions/   No. of   Number/names of
                    FY2001     clusters            programs programs we
                    COV        reviewed in         included examined in depth
                    reports    each COV            in COV
                               report (Division    review
                               name)
           CISE      2         1 – Advanced        1         1
                               Computational                 -Advanced
                               Infrastructure &              Computational
                               Research                      Research
                               7 clusters –        26        9
                               Experimental                  -CISE
                               and                           Instrumentation
                               Infrastructure                -CISE Research
                               Activities                    Infrastructure
                                                             -Digital Government
                                                             -Next Generation
                                                             Software
                                                             -Professional
                                                             Opportunities for
                                                             Women in Research
                                                             and Education
                                                             -Science &
                                                             Technology Centers
                                                             -Biocomplexity
                                                             -Nanoscale Science
                                                             and Engineering
                                                             -Info Tech Centers
           ENG       3         1 – Civil &         6         3
                               Mechanical                    -Dynamic System
                               Systems                       Modeling, Sensing,
                                                             and Control
                                                             -Geotechnical and
                                                             GeoHazard Systems
                                                             -Infrastructure
                                                             Systems Management
                               1 – Design,         2         2
                               Manufacturing,                -Small Business



                                   25
Directorate No. of    No. of divisions/   No. of   Number/names of
            FY2001    clusters            programs programs we
            COV       reviewed in         included examined in depth
            reports   each COV            in COV
                      report (Division    review
                      name)
                      and Industrial                Technology Transfer
                      Innovation                    - Small Business
                                                    Innovative Research
                      1 – Engineering     7         3
                      Education &                   -Engineering
                      Centers                       Education
                                                    -Engineering
                                                    Research Centers
                                                    -Human Resources
                                                    Development
   GEO      2         1 – Earth           1         1
                      Sciences                      -Instrumentation &
                                                    Facilities
                      1 – Lower           6         3
                      Atmospheric                   -Atmospheric
                      Research                      Chemistry
                                                    -Climate Dynamics
                                                    -Mesoscale Dynamic
                                                    Meteorology
   EHR      4         1 – Elementary,     1         1
                      Secondary, &                  -Informal Science
                      Informal                      Education
                      Education
                      1 – Graduate        1         1
                      Education                     -NATO Postdoc
                                                    Fellowships
                      1– Education        3         2
                      System Reform                 -Statewide Systemic
                                                    Initiatives
                                                    -Rural Systemic
                                                    Initiatives
                      1 – Human           4         2
                      Resource                      -Centers of Research
                      Development                   Excellence in Science
                                                    & Technology
                                                    -Alliance for
                                                    Graduate Education
                                                    and the Professoriate
Total       11        17                  58        28




                           26
